IN THE SUPREME COURT OF THE UNITED STATES

No. 19-107
VINCENT ASARO, PETITIONER
V.

UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE

I, Amy Mason Saharia, counsel for petitioner and a member of
the Bar of this Court, certify that, on November 18, 2019, three
copies of the Petitioner's Reply Brief in Support of Petition for
a Writ of Certiorari in the above-captioned case were sent,

by

third-party

by

commercial

carrier

for

delivery

overnight

and

electronic email, to the following counsel:
Noel J. Francisco, Esq.
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W., Room 5616
Washington, DC 20530
SupremeCtBriefsOusdoj.gov
I further certify that all parties required to be served have
been served.

ffloM.

Amy Mason Saharia^

